April 3, 2020

Patrick J. Kearns
619.881.3335 (direct)
Patrick.Kearns@wilsonelser.com

Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Airbus Helicopters, Inc. v. Riggs, et al.
Case No. 19-1158

Dear Clerk,
Pursuant to Supreme Court Rule 30.4, counsel for Respondents Matthew
Hecker, Daniel Friedman, Brenda Halvorson, Geoffrey Edlund, Elling B. Halvorson,
John Becker, Elling Kent Halvorson, Lon A. Halvorson, Papillon Airways, Inc.,
d/b/a Papillon Grand Canyon Helicopters, and Xebec LLC, in the matter
designated above, hereby requests that the time within which to respond to the
petition for certiorari be extended 30 days, to and including May 22, 2020. Consent
was requested of counsel for the Petitioner Airbus Helicopters, Inc., who consented
to this request for a 30-day extension. The petition for certiorari in the aboveentitled case was docketed on March 20, 2020, after Justice Kagan granted
Petitioner an extension from February 19, 2020 to March 20, 2020. Absent an
extension, the Brief in Opposition would be due April 22, 2020.
This request will not prejudice Petitioner’s interests and is made necessary for
following reasons:
1.
Given the impact that the COVID-19 emergency has had on local
courts in which counsel for Respondent Defendants have several pending matters,
Counsel of Record is currently devoting a substantial amount of time to the
management of our clients’ evolving needs and case load, specifically by formulating
contingency plans for matters with upcoming deadlines and hearings in courts that
are operating with limited staff. In light of this, an extension would be beneficial.
Additionally, given the alignment of certain interests with the Respondent

2126319v.1

Clerk of the Court
April 3, 2020
Re: Airbus Helicopters, Inc. v. Riggs, et al., No. 19-1158
Page 2
Plaintiffs, who have recently received this same extension, an identical extension on
behalf of these Respondent Defendants would assist in keeping this case on a
unified timeline among the parties.
2.
A 30-da e en i n ill n
does not object, and has consented to Re
days is appropriate for this matter.

ej dice Pe i i ne in e e s. Petitioner
nden request for this extension. Thirty

For the foregoing reasons, Respondents respectfully request a 30-day
extension in which to file a brief in opposition.
Regards,
Wilson Elser Moskowitz Edelman & Dicker LLP

Patens
Patrick J. Kearns, Esq.
Counsel of Record
Wilson Elser Moskowitz Edelman & Dicker LLP
Email: patrick.kearns@wilsonelser.com
William J. Katt, Esq.
Wilson Elser Moskowitz Edelman & Dicker LLP
740 N. Plankinton Avenue, Suite 600
Milwaukee, Wisconsin 53203
Telephone:
(414) 276-8816
Facsimile:
(414) 276-8819
Email: william.katt@wilsonelser.com
Counsel for Respondents
cc:

Carter G. Phillips, Counsel for Petitioner
Robert S. Peck, Counsel for Respondents

2126319v.1

